No. - - - - -

IN THE SUPREME COURT OF THE UNITED STATES

SCOTT LEE PETERSON, Petitioner,
V.

STATE OF CALIFORNIA, Respondent.

CERTIFICATE OF SERVICE

I HEREBY CERTIFY that all parties required to be served, have been served, on
this 15 day of January, 2021 , in accordance with the U.S. Supreme Court Rule 29.3, one
( 1) copy of the foregoing PETITION FOR WRIT OF CERTIORARI by placing said
copies in the U.S. mail, first class postage prepaid, addressed as listed below.
th

Donna M. Provenzano
Deputy Attorney General
Office of the Attorney General - San Francisco Office
455 Golden Gate Ave, Suite 11000
San Francisco, CA 94102-3664
Donna. Provenzano@doj.ca.gov

1448 San Pablo Avenue
Berkeley, California 94702
E-mail: Casetris@aol.com
Telephone: (510) 524-1093, ext. 301
Facsimile: (510) 527-5812
Attorney for Petitioner
Scott Lee Peterson

